No.

19-262
.itt TDB

6uprente enttrt of tbo niteb 6tatai
•
Xiao-Ying Yu,

Petitioner,
v.
Maryland Department of Health, Secretary Robert Neall
and Maryland Department of Budget and
Management, Secretary David Brinkley

Respondents.
•

On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Fourth Circuit
•
SUPPLEMENTAL BRIEF OF PETITIONER

•

September 18, 2019

Xiao-Ying Yu
P.O. Box 293
Abingdon, MD 21009
Telephone: 410-671-9823

Pro Se. Petitioner

TABLE OF CONTENTS
Page
TABLE OF CONTENTS
TABLE OF AUTHORITIES
STATUTES INVOLVED

ii

SUPPLEMENTAL BRIEF OF PETITIONER

1

U.S. Court of Appeals for Furth Circuit's
Order Is Pending
There Are Other Respondents' Counsels
Discussion
CONCLUSION
Appendix
Exhibit. No
1. The Fourth Circuit ("CA4") remains
the status of recalling the mandate
by pending Petitioner's (8/26/2019)
motion to correct errors in the Fourth
Circuit Court's docket records and to
remain the pending status of the
mandate as her (5/6/2019) request to
recall the mandate and to public the
unpublished opinion
la. Petitioner's (8/26/2019, CA4-doc
#55) motion responding to CA4's
(8/13/2019) order
lb. CA4 (8/13/2019) order

1
2
4
7

Page

App.1
App.1
App.6

11

TABLE OF CONTENTS-Continued
Appendix
Exhibit. No
Page
CA4-doc records

..App.8

Respondent, MDH's counsel Mr. Lewis'
waiver to response to the petition

App.11

Petitioner received EEOC's recording
file and confirmed by FOIA (7/6/2018)
People who attended EEOC's
Fact-Finding Conference
EEOC's investigator's notes
(4/19/2017) indicated Ms.Barra's
interference with EEOC's
investigation (4/19/2017) by
alleging "10/10/14 CP(Petitioner)
ask to resign or retire
Ms. Barra's testimony (in Office
Of Administrative Hearing in
Maryland ) on May 14, 2015
Indicating Ms. Barra's reports to
HR (10/8-10/10/2014) motivating
HR to terminate Petitioner
MDH HR's constructive discharge
(10/10/2014) requiring Petitioner
to resign and retire, and informing her MDH's termination plan

App.13
App.13

App.15

App.17

111

TABLE OF CONTENTS-Continued
Exhibit No
Page
(Cc.to Ms.Barra) prior to OEOP's
response to the Stat Medical
Director's recommended
Accommodation
App.27
4e. EEOC's right to sue letter (filed 3/22/
2018, District court ECF#20,
CA4-doc#4)
.App.29
5. Petition's doctor diagnosis

App.36

TABLE OF AUTHORITIEES
STATUTES PROVISIONS,
RULES AND REGULATIONS:
Fourteenth Amendment §1 to U.S. CONST

Page
5, 7

Federal Rules of Appellate Procedure 16

1

Federal Rules of Appellate Procedure 18

1

Federal Rules of Appellate Procedure 41

1

29 U.S.C. § 621, et. seq.,
The Age
Discrimination in Employment Act

3, 5,7

42 U.S.Code §12101 et seq.,The American with
Disabilities Act Law
3, 5,7

iv
42 U.S.C. §20000e seq. Title VII of the
Civil rights Act of 1964 Law
Supreme Court of The United States Rule 10

3, 5,7
5

V
STATUTES INVOLVED
STATUES PROVISIONS AND REGULATIONS:
Fourteenth Amendment-U.S. CONST.:
Section 1.
"...All persons born or naturalized in the
United States, and subject to the
jurisdiction thereof, are citizens of the
United States and of the state wherein they
reside. No state shall make or enforce any
law which shall abridge the privileges or
immunities of citizens of the United States;
nor shall any state deprive any person of life,
liberty, or property, without due process of
law; nor deny to any person within its
jurisdiction the equal protection of the
laws."
29 U.S.C. § 621, e. seg: Prohibition of age
discrimination ("ADEA")
§ 623 (a).Employer practice:
(1) to fail or to refuse to hire or to
discharge any individual or otherwise
discriminate against individual with respect
to his compensation, terms, conditions, or
privileges of employment, because of such
individual's age;

vi
to limit, segregate, or classify his
employees in any way which would deprive
or tend to deprive any individual of
employment opportunities or otherwise
adversely affect his status as an employee,
because of such individual age; or
to reduce the wage rate of any
employee in order to comply with this
chapter.
(d). Opposition to unlawful practice;
participate in investigations, proceedings, or
litigation. It shall be unlawful for an
any
against
employer... discriminate
individual.., because such individual has
opposed any practice made unlawful by this
section, ...or because such individual ...made
a charge,..."
42 U.S.C. Chapter 126-Equal opportunity for
individual with disability § 12101 et seq.,
("ADA"):
42 U.S.C. Chapter 126, Subchapter I,
Employment
§ 12112 Discrimination:
"(a) No covered entity shall discriminate
against a qualified individual on the basis of
disability in regard to job application
peocedure, the hirring, advancement, or
discharge of employees, employee

vii
compensation, job training, and othere terms,
conditions, and privileges of employment."
§ 12117 Enforcement
"(a) Power, remedies, and procedures
The power, remedies, and procedures set for
forth in sections ....provides to ... or to any
person allerging discrimination on the basis
of disability in violation of any provision of
this chapter, or regulations promulgated
under section 12116 of this title, concerning
employment."
42 U.S.C. Chapter 126, Subchapter IVMiscellaneous Provisions
§12202. State Immunity
"A State shall not be immune under the
eleventh amendment to the constitution of
the United State from an action in Federal
or State court of competent jurisdiction for a
violation of this chapter , remedies
(including remeedies both at law and in
equity) are available for such a violation to
the same extent as such remmedies are
available for such a violation in an action
against any publix or private entity other
than a state."

viii
§12203. Prohibition against retaliation and
coercion
"(a) Retaliation:
No person shall discriminate against any
individual because such individual has
opposed an act or practice made unlawful by
this charpter or because such individual
made a charge, testified, or participate in
any manner in an investigation, proceeding,
or hearing under this charpter."
(c) Remedies and procedures: The remedies
and procedures avaiable under section 12117,
12133 and 12188 of this title shall be
avalable to aggreved persons for violation of
subsections (a) and (b) of this section, with
respect to subchapter I, subchapter II and
subchapter III of this chapter, respectively."
42 U.S.C. §§ 2000e et seq. Title VII of the
civil rights Act of 1964 law: ("Title VII"):
_§2000e-2. Unlawful employment practices
"(a) Employer practice: It shall be an
unlawful employment practice for an
employer(1) to fail or refuse to hire or to
discharge any individual , or otherwise to
discriminate against individual with respect
to his compensation, terms, conditions, or
privileges of employment, because of such

ix
individual's race, color, religion, sex, or
national origin; or
(2) to limit, segregate, or classify his
employment or applicants for employment in
any way which would deprive or tend to
deprive any individual of employment
opportunities or otherwise adversely affect
his status as an employee, because of such
individual's race, color, religion, sex, or
national origin.

••
(m) Impermissible consideration of race,
color, religion, sex, or national origin in
employment practice:
Except as otherwise proved in this
subchapter, an unlawful employment
practice is established when the complaining
party demonstrates that race, color, religion,
sex, or national origin was a motivating
factor for any employment practice, even
though other factors also motivated the
practice."
§2000e-3. Other unlawful employment
practices
"(a) Discrimination for making charges,
testifying, assisting, or participating in
enforcement proceedings:
"It shall be an unlawful employment practice
for an employer to discriminate against any

of his employees or applicants for
employment... because he has opposed any
practice made an unlawful employment
practice by this subchapter, or because he
has made a charge, testified, assisted, or
participated in any manner in an
investigation, proceeding, or hearing under
this chapter."
Federal Rule Appellate Procedure Rule 16.
The Record on Reiew Or Enforcement.
"(a) COMPOSITION OF THE RECORD. The record on
review or enforcement of an agency order consists
of;
the order involved;
any findings or report on which it is based;
and
the pleadings, evidence, and other parts of
the proceedings before the agency.
(b) OMISSIONS FROM OR MISSTATEMENTS IN THE
RECORD. The parties may at any time, by
stipulation, supply any omission from the record
or correct a misstatement, or the court may so
direct. If necessary, the court may direct that a
supplemental record be prepared and filed.
NOTES

(As amended Apr. 24, 1998, eff. Dec. 1, 1998.)

xi
Federal Rule Appellate Procedure Rule 18.
Stay Pending Review
(a) MOTION FOR A STAY.
Initial Motion Before the Agency. A petitioner
must ordinarily move first before the agency for a
stay pending review of its decision or order.
Motion in the Court of Appeals. A motion for a
stay may be made to the court of appeals or one of
its judges.
(A) The motion must;
show that moving first before the agency would
be impracticable; or
state that, a motion having been made, the
agency denied the motion or failed to afford the
relief requested and state any reasons given by
the agency for its action.
(B) The motion must also include;
the reasons for granting the relief requested
and the facts relied on;
originals or copies of affidavits or other sworn
statements supporting facts subject to dispute;
and
relevant parts of the record.
(C) The moving party must give reasonable notice
of the motion to all parties.

xii
(D) The motion must be filed with the circuit clerk
and normally will be considered by a panel of the
court. But in an exceptional case in which time
requirements make that procedure impracticable,
the motion may be made to and considered by a
single judge.
(b) BOND. The court may condition relief on the
filing of a bond or other appropriate security.
Federal Rule Appellate Procedure Rule 41,
Mandate: Contents: Issuance and Effective
Date; Stay.
"(b) When Issued. The court's mandate must
issue 7 days after the time to file a petition
for rehearing expire, or 7 days after entry of
an order denying a timely petition for penal
rehearing, petitioner for rehearing en banc,
or motion for stay of mandate, whichever is
late."
(d) STAYING THE MANDATE PENDING A
PETITION FOR CERTIORARI.
(2) Duration of Stay; Extensions. The stay
must not exceed 90 days, unless:
the period is extended for good cause;
or
the party who obtained the stay
notifies the circuit clerk in writing within the
period of the stay:

that the time for filing a petition has
been extended, in which case the stay
continues for the extended period; or
that the petition has been filed, in
which case the stay continues until the
Supreme Court's final disposition.

1
SUPPLEMENTAL BRIEF OF PETITIONER
This supplemental brief calls the Honorable
Court's attention to a intervening matter, not readily
available at the time when Petitioner filed her
Petition for Writ of Certiorari and 30 of related
appendix on August 23, 2019, that may affect the
Court's consideration of this case.
I. U.S. Court of Appeals for Fourth Circuit's
Order Is Pending
After filing her Petition for Writ of Certiorari in
the Honorable Court on August 23, 2019, Ms. Yu
filed her motion on August 26, 2019 pursuant to
Federal Rule of Appellate Procedure ("FRAP") 16,
41(b) and 18(a)(2) and requested Fourth Circuit's
consideration to correct the misstatement in the
docket record which does not contain her "Notice of
Appeal" between August 6, 2018 (when her case No.
18-1889 was established) and October 17, 2018, and
to remain the pending status of their orders denying
her motion to recall the mandate and public their
pre-decided unpublished opinion without prior
decision for her timely filed motion to stay along with
her petition for rehearing and rehearing en banc (see
the Petitioner's motion, related Appendix#1). Since
then, Fourth Circuit's order is pending and the stay
of the mandate remains in effect until this Court
reaches a decision based on FRAP 41(d)(2) (see
Current Fourth Circuit's docket record, Appendix#2).

2
II. There Are Other Respondents' Counsels.
Petitioner just received a letter (dated
8/28/2019) from her case analyst, Mr. Jack Levitan,
regarding receipt and docket of her petition, a letter
in her behalf to send Respondent a form of "waiver"
to not file a response to petition for a writ of
certiorari, and a form of "Waiver" when she came
back Baltimore on September 16, 2019 from oversee
trip because her mother was sick. Also, she received
a hard copy form of "Waiver" completed by Mr.
James N. Lewis, Maryland Office of the Attorney
General, Respondent, Maryland Department of
Health's counsel, (see related Appendi#3, Post-Office
stamp is August 31, 2019) indicating that he is not a
member of bar in this Court and will not file a
response to the Petition. Yet, his "Waiver" has not
been shown in this Court docket in the Case No.19262. Nor has her case analyst Mr. Lavitan been
aware of Mr. Lewis' Waiver based on Petitioner's
conversation with Mr. Lavitan over the phone in the
morning on September 17, 2019.
Besides, Mr. Nicholas E. Johansson, Esq.,
(Maryland Office of the Attorney General,
Respondent, Maryland Department of Health,
Principle Counsel), attended EEOC (4/19/2017) Factfinding conference and heard that Ms. Sara Barra
provided EEOC false information regarding MDH
HR's (10/10/2014) retaliatory constructive discharge
which Ms. Barra herself motived leading to unlawful
termination on November 3, 2014 without mitigation

3
as that on October 10, 2014, Petitioner asked to
resign and retire to intentionally interfere with
EEOC's investigation of Petitioner's discrimination
and retaliation charge under Title VII, ADA and
ADEA leading to EEOC's biased conclusion. Please
see Appendix#4, (non-uploading Petition related
Appendix#23a-d and 27b). Mr. Johansson may be
able to respond the Petition.
In addition, because the Respondents are not
only Maryland Department of Health, Secretary
Neall, but also include Maryland Department of
Budget and Management, Secretary Brinkley,
Petitioner would add the Assistant Attorney General
at Maryland Department of Budget and
Management, Mr. Clifton R. Gray as well as the
Maryland State Attorney General, Mr. Brian E.
Frosh, (who were listed as Respondents in her
previous certificate of service) and provide copies of
her Petition Volume I and II to them. However,
Petitioner's right foot bones were recently broken
that makes great difficulties for her to provide
additional hard copies of Petition for them to review
(see related Appendix#5). In order to allow
Respondents' counsels to review her Petition and
supporting Appendix through the "Docket search" in
this honorable Court's website, Petitioner
respectfully requests this Court's consideration to
complete the uploading of her Appendix because
there is only 1.5 of Petitioner's 30 supporting
Appendix in the docket "Appendix" for case No. 19-

4
19-262 containing biased information without
Petitioner's complaint, response to Respondents'
motion to dismiss, informal brief and petition for
rehearing and rehearing en banc as well as summary
of lower courts' critical docket records and
proceedings. The current-uploaded Appendix
includes only Appendix#1a&b containing the Court
of Appeals for Fourth Circuit's (1/24/2019) curiam
opinion and judgment; Appendix#2a containing the
U.S. District Court of Maryland's (6/26/2018)
memorandum and order, and the part of the title for
Appendix 2b, Petitioner's (10/10/2018) "Informal
Brief' which is appealing against the U.S. District
Court of Maryland's memorandum and order. But,
the docketed-Appendix indicated "Additional
material from this filing is available in the clerk's
office" and the rest of Petitioner's supporting
Appendix has not been uploaded. It appears not to be
consistent with the way of uploading Appendix that
this Court Clerk's Office did for previous Petitioners.
III. DISCUSSION
The U.S. Supreme Court looks for cases
"involving unsettled questions of federal
constitutional or statutory law of general interest."
(Rehnquist, "The Supreme Court: How It Was, How
It Is." 269, 1987). These cases meet three conditions:
(1) cases raising a federal questions to which
different federal circuits have given conflicting
answers, (2) cases clearly raising an important

5
federal question, and (3) cases which an appellate
court decided in conflict with governing Supreme
Court precedent (Supreme Court Rule 10).
The Fourth Circuit order's pending status
makes it convenient for this Court's review of this
case.
Petitioner presents convincing evidence in her
pleadings that she exhausted administrative remedy,
her priority and equal protection rights were
deprived without mitigation and a hearing, and she
raises important federal questions that the lower
courts have held that an act of Congress is
unconstitutional based on two clauses of Fourteenth
Amendment to U.S. CONST. In addition, she
indicates that the judgment and orders made by the
Fourth Circuit to affirm the District Court's
dismissal directly conflict with the decisions of over
four of other U.S. Courts of Appeals and also this
Court's principles and instructions for workplace
discrimination and retaliation against employee's
protected activities under Title VII, ADA and ADEA.
Furthermore, she demonstrates the issues such as
the U.S. appellate court's refusal of granting
intervene, oral argument and rehearing en bans to
reject amendment of new evidence and arguments of
genuine factual and legal issues that are sufficiently
important in terms of their national wide relevance
or important that the Supreme Court should have
the final word and supervision on the issues.

6
Nevertheless, as a practical matter, the justice
will not grant certiorari without requesting a
response from the party opposing certiorari.
Therefore, as Mr. Lewis is not a member of bar in
this Court to not be able to file a response, it is
important to bring this Court's attention to another
Maryland Department of Health's Counsel, Mr.
Johansson; add back Respondents' counsels who
were previously listed in Petitioner's complaint, and
also it is very necessary to make it convenient for
them to review the entitle picture of the Petition and
Appendix through access to "docket search" in this
Court's website rather than creating difficulties for
them to go to Supreme Court Clerk Office to request
a review of the major critical part of important
Appendix.
Furthermore, the uploading all of Appendix
instead of only biased information will not only to
allow Respondents' counsels but also the clerks from
Justice of Alito's chamber and "Certiorari Pool" of the
other eight Justice to have opportunities to review a
entire picture of the Petition and Appendix which
include proceedings (table of docket record summary,
Appendix#30), and Petitioner's complaints and
consequential documents in response to the
Respondents' motion to dismiss, and judgments and
orders of both the District Court and Fourth Circuit
through access to "docket search" in this Court's
website without difficulties at their convenience as
needed to save their time.

7
Moreover, providing complete Petition and
related supporting Appendix in this Court's website
is very important for the Respondents to make
opposing brief, and for Justice of Alito's law Clerk to
generate opinion of review and "Cert Pool" law Clerk
to create memos prior to being collected by the Chief
Justice and distributed to other justice to review and
annotate. It is also a significant indicator as the
outstanding model of the judicial system for State
and Federal Courts as well as American citizens to
learn whether to public or hide the evidence (which
are important issues existed in the lower courts)
especially when United States citizen's property and
equal protection rights were unlawfully deprived to
retaliate against their protected activities under
Title VII, ADA and ADEA without mitigation and a
hearing by government agency and United States
District Court and Appellate Circuit Court.
CONCLUSION
Petitioner prays to GOD and respectfully
requests this Court's attention to her Supplemental
Brief because biased information may affect the
Court's consideration of cases.
Vey Respectfully submitted.
iao-Yin u, Pro Se.
P.O. Box 293
Abingdon, MD 21009

App. 1
Exhibit No. 1.
The Fourth Circuit ("CA4") remains the status of
recalling the mandate by pending Petitioner's
(8/26/2019) motion to correct the errors in CA4's
docket and to remains pending status of the
mandate (as she requested to recall the mandate
and to public the unpublished opinion) in response
to CA4's denial orders on July 29, and August 13,
2019.
Exhibit No.la
Petitioner's (8/26/2019) motion

IN THE UNITED STATES COURT OF
APPEALS FOR THE FOURTH CIRCUIT
Xiao-Ying Yu
Plaintiff -Appellant

* Case No. 18-1889

V.
Maryland Department of
Health, Secretary Robert
Neall and Maryland
Department of Budget and *
Management Secretary
David. Brinkley
Defendants Appellees
************************************************

App.2
MOTION FOR THE CORRECTION OF THE
MISSTATEMENT AND A STAY PENDING THE
REVIEW OF PLAINTIFF'S APPLICATION FOR STAY
AND INJUNCTIVE RELIEF AND PETITION FOR
CERTIORARI BY THE SUPREME COURT OF THE
UNITED STATES
Plaintiff-Appellant, Xiao-Ying Yu, Pro Se.,
respectfully makes requests pursuant to Fed. App.
P. Rule 16, 41(b) and 18(a)(2) for the honorable
Court's consideration to correct the inconsistent
and incorrect statement of "Date NOA filed" and
"Date Rec'd COA" under "Originating Court
Information" in the "General Docket" of docket
record for. Case NO. 18-1889 regarding the filing
dates of Petitioner's notice of appeal as August 2,
and August 6, 2018, and also to grant a stay
pending the review of the Plaintiffs application for
stay and injunctive relief as well as her petition for
writ of certiorari by the Supreme Court of the
United States'. In support of this application, the
Plaintiff states the following:

1 Plaintiff, Asian American pro se, was Maryland State
employee supported by CDC funding and was
unlawfully terminated in the absence of pre-mitigation
within two months after she filed discrimination and
retaliation complaints with EEOC under Title VII,
ADEA and ADA. The evidence of Plaintiffs written
reports regarding EEOC's permission to sue and
EEOC's right-to'sue letter were docketed (11/6/2017 and
3/22/2018 in the district court prior to the dismissal of
her claims, COA4 docket#4). Defendants failure to
provide a . evidentiary prior-mitigation of termination

App.3
1.There is no any documents of Plaintiffs
notice of appeal transmitted from the District
Court to the Courts of Appeals for the Fourth
Circuit (see enclosed exhibit: the District Court
docket record-ECF#48&52) in the Court's docket
records between August 2 and August 20, 2018
(CA4-docket#1-4). Therefore, it lacks filing
documents to support the statement made in the
docket records for "Date NOA filed" and "Date
Rec'd COA" under "Originating Court Information"
in "General Docket" between August 6, 2018 and
August 8, 2018. In addition, Plaintiff never filed
notice of appeal on August 2, and August 6, 2018.
In fact, Plaintiff filed her initial notice of appeal on
July 26, 2018 with exhibits: motion for clarification
and relief, motion for leave to file amendment;

and any legitimate and un-discriminatory, unretaliatory and non-pretextual reasons for denial of
their adverse actions and neglecting their duties; and
Congress' abrogation of State employers' 11th
Amendment Immunity to ADA complaint were biasedly
neglected. Due Process and Equal Protection Clauses of
Fourteenth Amendment to U.S.CONST protects
Employees' property from deprivation without
mitigation or a hearing (Goldberg v. Kelly, 397 U.S.
254). However, Plaintiff has never been given a hearing
and pre-direction of the District Court's decision by
adopting the reasons from defendants' motion based on
the genuine material disputes and outside pleadings
prior to the District Court's closure of her case.
Plaintiffs right to dispute the factual and legal issues
regarding deprivation of her property right at oral
argument and rehearing en banc in this Court were
prejudicially denied.

App.4
EEOC's new evidence and re- submission of EEOC's
right-to-sue letter" (which were not docketed on
7/24/2018, instead was returned to her on
7/27/2018 due to the immediate closure of her case,
see exhibit, ECF#37, 38&39), but her 7/26/2019
notice of appeal was also returned to her on July 31,
2018 (ECF#40) because the District Court ignored
Plaintiff's (7/17/2018) notice of appearance and her
attorneys' substitution of attorneys and discharge
of attorneys (7/23/2018, ECF35&36)). Plaintiff had
to re- submit her notice of appeal on August 7, 2018
as the District Court's instruction and enclosed
same exhibits described above and plus her
(7/26/2019) initial notice of appeal. It is no merit to
enter Plaintiffs (8/7/2018) notice of appeal and
related exhibits to the docket of this Court on
October 18, 2018 (CA4-docket#15). Nor is there any
additional transmitted supplemental information
(stated in the text of this docket#15) from the
District Court except this notice of appeal, which,
while was transmitted by the District Court to the
Court of Appeals on August 7, 2018 (indicated by
the District Court docket record-ECF#54, see the
enclosed exhibit).
2.Regarding her request of relief from the
District Court's biased actions and mistakes in the
docket records, Plaintiff addressed in her letter on
8/30/2018 (CA4-doc#7), motion for concerns about
the docket records on October 18, 2018 (CA4doc#17) and her supplemental informal brief on
January 16, 2019 (CA4- doc#25) as well as her

App.5
informal brief and petition for rehearing and
rehearing en bane (CA4-doc#10&29). Yet, her
motion for concerns about the docket records was
mooted and her informal brief and her petitioner
for rehearing and rehearing were denied by Court's
(1/24/2019) curiam opinion and judgment, and
(3/26/2019) order, (CA4-doc#26, 27&37).
3. The honorable Court's mandate and order
should be remained to stay pending consistently as
same as the status between May 6, 2019 and July
29, 2019 during the Supreme Court's review of
Plaintiffs application for stay and injunctive relief
by the Chief Justice Robert, Jr. because the
mandate based on Fed. R. App. P. 41(a) lacks merit
by failure to follow the instruction Fed. R. App. P.
41(b) and ignoring Plaintiffs motion to stay that
was amended to her initial filling along with her
petition for initial hearing/rehearing and rehearing
en bane. Keeping the misstatements and incorrect
docket records and denial of pending will cause the
confusion and bring the difficulties to interfere
with the Supreme Court's review of Plaintiffs
application for stay and injunctive relief as well as
her petition for writ of certiorari.
4.There is no prejudice to respondents if the
Court grants Plaintiffs motion to consider the
correction of the errors in the docket records and
grant a stay pending review for the integrity of
justice under Due Process and Equal Protection
two clauses of Fourteenth Amendment U.S.CONST.
and 42 U.S.C. § 1983.

App.6

WHEREFORE, the Plaintiff prays to GOD that
this motion be granted.
Respectfully submitted,
/s/ Xiao-Ying Yu, pro se
Mailing address:
P.O. Box 293,
Abingdon, MD 21009
August 26, 2019

Exhibit No.lb.
CA4's (8/13/2019) order denying Petitioner's
(8/12/2019) motion to suspend CA4's (7/29/2019)
order requesting to remain the stay status of the
mandate and to public the unpublished opinion:
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 18-1889
(1:17-CV-03260-JKB)
XIAO-YING YU
Plaintiff-Appellant
V.
ROBERT R. NEALL, Maryland Department of

App.7
Health Secretary (formally Dennis Schrader);
DAVID BRINKLEY, Maryland Department of
Budget and Management Secretary
Defendants-Appellees

ORDER

(Filed August 13, 2019)
The court denies the motion to suspend the
court order of July 29, 2019 in this case.
/s/ Patricia S. Connor, Clerk

Exhibit No.2
CA4 docket records:

App.8
https://ecfca4.uscourts.govhilbeam/servlet/TransportRoc

18-1889 Docket

General Docket
United States Court of Appeals for the Fourth Circuit
Court of Appeals Docket #: 18-1889
Nature of Suit: 3440 Other Civil Rights
Xiao-Ying Yu v. Robert Neall
Appeal From: United States District Court for the District of Maryland at Baltimore
Fee Status: fee paid

Docketed: 08/06/2018
Termed: 01/24/2019

Case Type Information:
Civil Private
private
null

_I

Originating Court Information:
District: 0416-1 : 1:17-cv-03260-JKB
Presiding Judge: James K. Bredar, Chief U. S. District Court Judge
Date Filed: 11/06/2017
Date Order/Judgment EOD:
Date Order/Judgment:
06/26/2018
06/26/2018
___________
Prior Cases:
None

•

______ _____ __ _...._

Date Recd COA:
Date NOA Filed:
•
08/02/2018
08/02/2018
08/07/2018
08/07/2018
____________________

Current Cases:
None

XIAO-YING YU
Plaintiff - Appellant

Xiao-Ying Yu
Direct: 410-671-9823
Email: xiaoying.yu67@gmail.com
[NTC Pro Se]
557 Kirkcaldy Way
Abingdon, MD 21009

ROBERT R. NEALL, Maryland Department of Health Secretary
(formerly Dennis Schrader)
Defendant - Appellee

James Nelson Lewis, Esq.
Direct: 410-767-5162
Email: James.Lewis1@maryiand.gov
[COR NTC Government]
OFFICE OF THE ATTORNEY GENERAL
Maryland Department of Planning
Suite 302
300 West Preston Street
Baltimore, MD 21201

DAVID BRINKLEY, Maryland Department of Budget and
Management Secretary
Defendant - Appellee

James Nelson Lewis, Esq.
Direct: 410-767-5162
[COR NTC Government]
(see above)

,
I

App.9
https://ecf. ca4. uscourts. gov/n/beam/sery let/Tran sport RD

18-1889 Docket

I 08/06/2018 :7 1
1 pg, 12.96 KB

08/06/2018
08/06/2018

L., 2
1 pg, 10.65 KB

3
11 pg, 52.45 KB

08/08/2018 ED 4

08/24/2018

5
2 pg, 330.9 KB

08/24/2018 El 6
1 p9, 8.28 KB

09/04/2018 l"' 7
5 pg, 968.41 KB

09/13/2018 12 8
1 pg. 19.1 KB

10/01/2018

9
2 pg, 448.69 KB

10/01/2018

10

Case docketed. Originating case number: 1:17-cv-03260-JKB. Case manager: CBennett. [18-1889] CB
[Entered: 08/06/2018 11:17 AM]
RECORD requested from Clerk of Court. Due: 08/20/2018. [18-1889] CB [Entered: 08/06/2018 11:42 AM]
INFORMAL BRIEFING ORDER filed. Mailed to: Xiao-Ying Yu. Informal Opening Brief due 08/30/2018.
Informal response brief, if any: 14 days after informal opening brief filed. [18-1889] CB [Entered:
08/06/2018 11:46 AM]
ASSEMBLED ELECTRONIC RECORD docketed (522 Pages). Originating case number: 1:17-cv-03260JKB. Record in folder? Yes. Record reviewed? Yes. PSR included? N/A. [18-1889]-[Edited 01/11/2019 by
TW, added page numbers to docket text] TW [Entered: 08/08/2018 12:08 PM]
MOTION by Appellant Xiao-Ying Yu to extend filing time for informal opening brief for 30 days. Date and
method of service: 08/24/2018 hand delivery. [1000354981] [18-1889] CB [Entered: 08/24/2018 01:47 PM]
ORDER filed [1000354983] granting Motion to extend filing time [5] Number of days granted: 30. Informal
Opening Brief due 10/01/2018. Copies to all parties. Mailed to: Xioa-Ying Yu. [18-1889] CB [Entered:
08/24/2018 01:49 PM]
Letter re: district court docket by Appellant Xiao-Ying Yu. [1000361235] [18-1889] CB [Entered: 09/05/2018
11:07 AM]
Notice issued: response to [7] letter from Xiao-Ying Yu. Mailed to: Xiao-Ying Yu. [18-1889] CB [Entered:
09/13/2018 03:48 PM]
DISCLOSURE OF CORPORATE AFFILIATIONS by Xiao-Ying Yu. Was any question on Disclosure Form
answered yes? No. [1000376479] [18-1889] TW [Entered: 10/01/2018 12:34 PM]
INFORMAL OPENING BRIEF by Xiao-Ying Yu. [18-1889] TW [Entered: 10/01/2018 12:35 PM]

56 pg, 3.5 MB

10/11/2018

11
1 pg, 36.1 KB

10/11/2018

12
3 pg, 30.63 KB

10/11/2018

13
1 pg, 8.89 KB

10/15/2018 Zi 14
6 pg, 1 08 MB

10/18/2018 ..12: 15

APPEARANCE OF COUNSEL by James N. Lewis for David Brinkley and Robert R. Neall.[1000383121]
[18-1889] James Lewis [Entered: 10/11/2018 02:34 PM]
MOTION by Robert R. Neall and David Brinkley to extend filing time for informal response brief until
October 22, 2018.. Date and method of service: 10/11/2018 US mail. [1000383125] [18-1889] James
Lewis [Entered: 10/11/2018 02:37 PM]
ORDER filed [1000383154] granting Motion to extend filing time [12] Number of days granted: 7.,
extending informal briefing order deadlines. Any Informal Response Brief due 10/22/2018. Copies to all
parties. Mailed to: Xiao-Ying Yu. [18-1889] JH [Entered: 10/11/2018 03:15 PM]
RESPONSE/ANSWER (titled "Reply to Appellees' Motion to Extend Time") by Xiao-Ying Yu to Motion to
extend filing time [12]. [18-1889] CB [Entered: 10/16/2018 05:01 PM]
SUPPLEMENTAL ASSEMBLED ELECTRONIC RECORD docketed (64 pages). Record in folder? Yes.
Record reviewed? Yes. [18-1889]--[Edited 01/11/2019 by TW, added page numbers to docket text] CB
[Entered: 10/18/2018 10:28 AM]

22 pg, 62.45 KB

INFORMAL RESPONSE BRIEF by David Brinkley and Robert R. Neal!. [18-1889] James Lewis [Entered:
10/22/2018 02:12 PM]

10/22/2018

1E2 17
51 pg, 10.1IVB

MOTION by Xiao-Ying Yu titled "Motion for concerns of the docket records". Date and method of service:
10/18/2018 US mail. [1000390084] [18-1889] CB [Entered: 10/23/2018 03:20 PM]

10/25/2018

fri 18
4 pg, 679:78 KB

MOTION by Xiao-Ying Yu for leave to file electronically. Date and method of service: 10/23/2018 US mail.
[1000392268] [18-1889] CB [Entered: 10/26/2018 09:57 AM]

10/22/2018

16

10/26/2018 2 20
1 pg, 8.54 KB

11/01/2018 1% 21
1 pg, 8.28 KB

11/13/2018

22

ORDER filed [1000392343] granting Motion for leave to file documents electronically. 1181 Copies to all
parties.. [18-1889] JQ [Entered: 10/26/2018 10:39 AM]
ORDER filed [1000396255] extending filing time for informal reply brief until 11/13/18. Number of days
granted: 12. Copies to all parties. [18-1889] TW [Entered: 11/01/2018 01:50 PM]
Letter re: case by Xiao-Ying Yu . [1000402853] [18-1889] TVV [Entered: 11/13/2018 02:01 PM]

1

3 pg, 510.74 KB

11/13/2018 ?..i 23

INFORMAL REPLY BRIEF by Xiao-Ying Yu. [18-1889] TW [Entered: 11/13/2018 02:02 PM]

42 pg, 3.11 MB

11/14/2018

' 7 24
3 P9. 2.74 MB

01/16/2019 E.: 25
41 pg, 39.73 MB

01/24/2019 . 26
2 pg, 11 KB

i
I
I
I
i

Amended DISCLOSURE OF CORPORATE AFFILIATIONS by Xiao-Ying Yu. Was any question on
Disclosure Form answered yes? No [1000403425] [18-1889] Xiao-Ying Yu [Entered: 11/14/2018 10:44 AM]
SUPPLEMENTAL INFORMAL OPENING BRIEF by Xiao-Ying Yu. [18-1889] Xiao-Ying Yu [Entered:
01/16/2019 12:23 PM]
UNPUBLISHED PER CURIAM OPINION filed. Motion disposition in opinion--denying as moot the motion
for concerns of the docket records [:1/]. Originating case number: 1:17-cv-03260-JKB. Copies to all parties
and the district court/agency. [1000444298]. Mailed to: Xiao-Ying Yu. [18-1889] CB [Entered: 01/24/2019
10:32 AM]

App.1 0
https://ecfca4.uscourts.gov/n/beam/sery I et/Tran sportRoc

18-1889 Docket

01/24/2019 7.1i 27
4 pg, 37.68 KB

02/06/2019 t': 28
65 pg, 10.43 MB

02/06/2019 .11 29
65 pg, 42.65 MB
02/07/2019

30
3 pg, 412.8 KB

02/07/2019 ..:: 31
3 P9, 412.8 KB

02/07/2019
1 pg,

32
8.48 KB

02/08/2019 L.• 33
82 pg, 25.65 MB

02/08/2019

34
1 pg, 852.01 KB

02/13/2019

35
34 pg. 2.61 NB

02/13/2019

36
34 pg. 2.61 NB

03/26/2019

37
1 pg, 8.19 KB

04/01/2019

38
58 pg, 4.86 NB

Amended PETITION for initial hearing en banc by Xiao-Ping Yu. [18-1889] Xiao-Ying Yu [Entered:
02/06/2019 09:50 PM]
Supplemental PETITION for rehearing and rehearing en banc by Xiao-Ying Yu. [18-1889] Xiao-Ying Yu
[Entered: 02/06/2019 09:53 PM]
Supplemental PETITION for initial hearing en banc by Xiao-Ying Yu. [18-1889] Xiao-Ying Yu [Entered:
02/07/2019 12:22 AM]
Supplemental PETITION for rehearing and rehearing en banc by Xiao-Ping Yu. [18-1889] Xiao-Ying Yu
[Entered: 02/07/2019 12:26 AM]
Mandate stayed pending ruling on petition for rehearing or rehearing en bane. [18-1889] CB [Entered:
02/07/2019 10:19 AM]
MOTION by Xiao-Ying Yu for leave to file , for initial hearing en bane , to reconsider unpublished per
curiam Opinion [261, bcc:none aq. Date and method of service: 02/08/2019 ecf. [1000454765] [18-1889]
Xiao-Ping Yu [Entered: 02/08/2019 03:20 PM]
CHANGE OF ADDRESS Notice by Xiao-Ping YuMailing address. [1000454917] [18-1889]--[Edited
02/11/2019 by ALC - Filing Event modified] Xiao-Ping Yu [Entered: 02/08/2019 05:23 PM]
Amended petition/motion by Xiao-Ping Yu amending (30] Motion. Document: Amendment-mandate2-13-2019.pdf. [1000457512] [18-1889] Xiao-Ying Yu [Entered: 02/13/2019 04:50 PM]
Amended petition/motion by Xiao-Ping Yu amending (31] Motion for rehearing and rehearing en bane.
Document: Amendment-mandate-2-13-2019.pdf. [1000457516] [18-1889] Xiao-Ping Yu [Entered:
02/13/2019 04:56 PM]
COURT ORDER filed [1000481776] denying Motion for initial hearing en bane [28], denying Motion for
initial hearing en bane [301, denying Motion for initial hearing en bane [33]; denying Motion for rehearing
and rehearing en bane [29], denying Motion for rehearing and rehearing en bane (311; denying Motion to
reconsider [33]; denying Motion for leave to file [331. Copies to all parties. [18-1889] CB [Entered:
03/26/2019 09:39 AM]
Emergency MOTION by Xiao-Ping Yu to suspend I respectfully make the application for suspension of the
Court's 3/26/2019 order under Fed. App. P Rule 2 for relief of the consequence of default by manifest
injustice demonstrated by my petition and motion to recuse because the order was biased.. , to
disqualify/recuse judge Names of Judge(s) to be disqualified/recused: I respectfully file the motion to move
that panel-leading judge recuse herself because her practical history, leading biased curiam and request of
unreasonable a poll as barrier to block petition &deprive my civil right, property right and relief benefits. ,
vacate decision on appeal , to reverse decision on appeal. Date and method of service: 04/01/2019 ecf.
[1000485290] [18-1889] Xiao-Ping Yu [Entered: 04/01/2019 11:37 AM]

1 pg, 14.37 KB

NOTICE ISSUED re: further consideration unavailable - Local Rule 40(d). Document: [381 Motion to
reverse decision on appeal [38], Motion vacate decision on appeal [381, Motion to disqualify/recuse judge
[381, Motion to suspend. [18-1889] CB [Entered: 04/12/2019 02:02 PM]

40

, unpublished per curiam opinion, [271 judgment order. Originating case
Mandate issued. Referencing: [X]
number: 1:17-cv-03260-JKB. [18-1889] TW [Entered: 04/15/2019 04:24 PM]

04/12/2019 •7..'• 39

04/15/2019

JUDGMENT ORDER filed. Decision: Affirmed. Originating case number: 1:17-cv-03260-JKB. Entered on
Docket Date: 01/24/2019. [1000444300] Copies to all parties and the district court/agency. Mailed to: XiaoYing Yu. [18-1889] CB [Entered: 01/24/2019 10:34 AM]

1 pg, 8.36 KB

04/16/2019 El 41
62 pg, 5.64 MB

REPLY by Xiao-Ping Yu to Notice [39]. Enter name and role of filer if not on list of party filers above: I am
respectfully submitting my civil action under 42 U.S.Code 1983, 14th Amendment and Congress
enforcement power and requesting the Court to execute equal justice under law because of the deprivation
of my property and equal protection rights see doc#39. [18-1889] Xiao-Ping Yu [Entered: 04/16/2019 05:30
PM]

42
04/16/2019
3 pg, 150.39 KB

04/19/2019

43
84 pg. 7.16 NB

04/22/2019
05/06/2019

44
1 pg, 8.22 KB
45
96 Pg. 7.56 MB

AFFIDAVIT by Appellant Xiao-Ping Yu re: I stated all these matters under oath, the letter to the Court's
Clerk and Chief Judge, the civil action and related appendix are true and correct (linked to docket#41).
Certificate of service and compliance are also enclosed.. [1000495146] [18-1889] Xiao-Ping Yu [Entered:
04/16/2019 08:59 PM]
Emergency MOTION by Xiao-Ping Yu I respectfully request the Court to recall the mandate and vacate its
judgment under Fed. R. App. P. 41(b)&(c), due process and equal protection of the Fourteenth
Amendment and Congress's enforcement power for the deprivation of my constitutional rights to recall
mandate. , vacate decision on appeal. Date and method of service: 04/19/2019 ecf. [1000496732]
[18-1889] Xiao-Ping Yu [Entered: 04/19/2019 06:40 AM]
ORDER filed [1000498011] denying Motion to recall mandate [43]; denying Motion vacate decision on
appeal [431. Copies to all parties. [18-1889] CB [Entered: 04/22/2019 04:33 PM]
•
MOTION by Xiao-Ping Yu I am respectfully submitting a motion for publication of unpublished opinions and
Court's 4/22/2019 order under Fed. R. App. P. 34(a0(2)&(b), Rule 27,Local Rule
the
of
reconsideration
36(b), U.S.C. 28, Chap.21, 485, Fed. R. App. P. 41(b), 42USC, 1983. to publish opinion/order. , to
reconsider order [44], Motion [4_,3], Motion [4j, mandate [40], court order [371, Judgment order [27], Notice
[391 , to recall mandate.. Date and method of service: 05/06/2019 ecf. [1000506820] [18-1889] Xiao-Ping

App.11
https://ecf.ca4.uscourts.govitilbeam/servlet/TransportRoi

18-1889 Docket

Yu [Entered: 05/06/2019 11:42 AM]
05/29/2019 E 46
2 pg, 132.34 KB

06/10/2019 T:f 47

90 pg, 4.22 m3

06/10/2019

48
2 pg, 167.79 KB

06/14/2019 i71" 49
6 pg. 1.18 rue

07/23/2019 E 50

Letter re: The letter to clerk and chief judge is to follow up my motion for reconsideration & publication. I
am hoping to obtain relief and learn if the deadline to file petition for writ of certiorari should be postponed
due to the process of recalling the mandate [45] Motion, [45] Motion, [45] Motion, [44] order, [43] Motion,
[43] Motion, [40] mandate by Xiao-Ying Yu . [1000520947] [18-1889] Xiao-Ying Yu [Entered: 05/29/2019
03:34 PM]
DOCUMENT re: copy of motion to US Supreme Court AND request for copy of unpublished opinion by
Xiao-Ying Yu. [1000529556] [18-1889] CB [Entered: 06/13/2019 09:19 AM]
SUPREME COURT REMARK—extension granted to file petition for writ of certiorari. Petition for certiorari
now due: August 23, 2019. [18-1889] EB [Entered: 06/13/2019 03:30 PM]
Letter re: Plaintiff, pro se,is respectfully requesting the clarification for the error in the abstract of CA4
doc#47 and also control and prohibition of the alteration and deletion of the docket records for the
confusions and negative impacts on review & justice. [47] document, [48] extension for cert petition
supreme court by Xiao-Ying Yu . [1000530601] [18-1889] Xiao-Ying Yu [Entered: 06/14/2019 01:51 PM]
CERTIFICATE/SERVICE LIST by Xiao-Ying Yu. [18-1889] Xiao-Ying Yu [Entered: 07/23/2019 11:31 PM]

433 pg, 113.12 MB

07/29/2019 iT 51
1 pg. 8.52 KB

08/01/2019 L 52
11 pg, 757.34 KB

08/12/2019 E. 53
7 pg. 1.2 tAB

08/13/2019 E 54
1 pg, 8.22 KB

08/26/2019 E 55
16 pg, 3.96 MB

COURT ORDER filed [1000556009] denying Motion to publish opinion/orders; denying Motion to
reconsider court order [45]. Copies to all parties. [18-1889] CB [Entered: 07/29/2019 03:52 PM]
DOCUMENT re: copy of correspondence to US Supreme Court by Xiao-Ying Yu. [1000558728] [18-1889]
CB [Entered: 08/01/2019 02:06 PM]
MOTION by Xiao-Ying Yu Plaintiff respectfully submits her application to suspend the court's order denying
her request to reconsider recalling the mandate of the judgment during the U.S. Supreme Court's review of
her application for stay and injunctive relief. to suspend. Date and method of service: 08/12/2019 ecf.
[1000565041] [18-1889] Xiao-Ying Yu [Entered: 08/12/2019 11:59 AM]
ORDER filed [1000565635] denying Motion to suspend court's order [53]. Copies to all parties. [18-1889]
CB [Entered: 08/13/2019 08:09 AM]
MOTION by Xiao-Ying Yu Plaintiff respectfully submits motion for correction of errors in the docket records
and for stay pending review by the Supreme Court. to reconsider order [54], court order [51], order [441,
mandate [40]. Date and method of service: 08/26/2019 ecf. [1000574602] [18-1889] Xiao-Ying Yu
[Entered: 08/26/2019 11:51 PM]

App.12
Respondents' counsel Mr. Lewis' waiver to response
the Petition for writ of Certiorari (dated 8/30/2019
and mailed to Petitioner on 8/31/2019).

WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

19-262
y Robert R. Neal!, et al.

Xiao-Ying Yu

(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I am a member of the Bar of the Supreme Court of the United States.
I am not presently a member of the Bar of this Court. Should a response be requested, the response
/
will be filed by a Bar member.
1
171,—.
7,.,
—4,....4).7
Signature
Date: '& /c0i
(Type or print) Name

Iq
E Mr.

Firm

''

--J

James N. Lewis
❑ Ids. 0 Mrs. 0 Miss

Maryland Office of the Attorney General

Address

300 West Preston Street, Suite 302

City & State
Phone

Baltimore, Maryland

410.767.5162

Zip
Email

21201

James lewis 1 @maryland.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: Ms. Xiao-Ying Yu

App.13

Exhibit No. 4
(from Petition-related Appendix #23a-d, filed on
8/23/2019).
Petitioner received EEOC's recording file which was
requested via FOIA and affirmed by FOIA on
7/6/2018. The EEOC's investigator hand-written
notice indicated that Ms. Barra's interference with
EEOC's investigation (4/19/2017 fact-finding
conference) of Petitioner's Title VII, ADA and ADEA
charges. (filed on 7/24/2018 along with her motion for
clarification and relief as well as motion for leave to
file amendment in response to the District Court's
6/26/2018 decision. However these documents were
returned because her case was closed on the same
day of the District Court's decision based on the
genuine issues without a trial and pre-direction.
Petitioner re-submitted on 7/26/2018 along with her
timely notice of appeal which was returned again
because the District Court required her attorney to
file it. Finally Petitioner re-submitted her notice of
appeal with these new evidence on 8/7/2019 (ECF#53,
CA4-doc#15, 10/18/2018).

Exhibit No: 4a.
People who attended E.E0C5 fact-finding conference:
EEOC Recording file:
FACT-FINDING CONFERENCE WEDNESDAY,
APRIL 19, 2017

App.14
10:00 a.m.

(Xiao-Yin; Yu v. Maryland Department of Health
and Mental Hygiene)
NAME
Delinda johnson
Sara Barra
Nicholas Johansson

FACT-FINDING CONFERENCE
WEDNESDAY, APRIL 19, 2017
10:00 a.m.
t or Health and Mental Hygiene)

(Xiao-Ying Yu v. Maryland Departmen

NAME

JOB TITLE

•

:
t,ctr, St On

.
<1

Cresfila"Ce Nf

40.e.k

DeAtv,4.A._.

EPtC mvatoe`Sg SPEti ALPCO
(-Vv.o.tr -kAti)
RANiver... t iktPAe.zoNess-k
KFmkrisE,
+AO
4fp.o4.

P‘sit*I-IA

EY GENERAL

OFFICE OF THE ATTORN
STATE OF MARYLAND
DEPARTMENT CF KEALTX&

Slk:O.r Tv:e4

Nicholas

MENTAL ttYSIENE

Johansson

Assistant Attorney General

Suite 302
300 W. Preston Street
Baltimore Maryland 21;,'01

(410) 767-5162
Fax (410) 333-7694
nitatianssanftao.State.rectus

App.15
Exhibit N9. 4b.

EEO' investigator Ms. Christine Boyd's hand written notice:
1
-)1

e 9560429e4R40 • virillfg:r' ,frFUed 08107118 P'ag(ik 6'53
5Ah7

Ow

ig-42)'41c- •
A.,\0/4,J•fab, Aii v ...414:/4 53/-.2D
Cc.)
,14
Ar
1/;eie),
6157m) b.°. (71
s
—02.41i441,

.11#07/4$11/1/

.514 X5gtim

1figt-A- A

fr/i-pordwd

- f/2-11/

.4,edr,..l.,1Xi-vcovi,k,tearkt,7114470—!

e-x", 112, PA
,411-h-c4) , 4ty14,,

r

fiea-kr
4-vir

jiY I CP as k- J /14-72: 4E7.0,2

L.10/

. ..

ac-d-y.ma41/eff=0,z

'kik( ter-c4 Aside-1, i 74,.....,..‘46,-,..-v
3 c. i;

J. ..4).4.-4i,i-Ce

App.16

r000.11-

A.K#3...aorAtmerfetittrald_eitge,224443__.f:

p7LA

4 1_04 ‘t- it

wm
Sci4.14(
rA-hc
Sk_41.

t 4.1 ie 1.•e. (...114.11

JUCIZZZ 14,):L•kll 6,1,4>

c

.

60-2.54—E--

-1,

.

Pr,

App.17
Exhibit 4c.
Ms. Sara Barra intentionally contacted HR
motivating HR to terminate Petitioner which was
indicated by Ms. Barra's testimony.
After received Dr. Toney's letter on 10/8/2014, Ms.
Barra talked with DHMH HR Ms. Toria Livingston
and provided biased and false information, this was
evidenced by Ms. Barra's testimony at 5/14/2015
OAH hearing. Below is the transcript of 5/14/2015
hearing proceeding from CDA OAH provided to
Petitioner in May and June, 2015. Mr. Doring is the
lawyer in DHMH HR, OAH Judge is Judith Jacobson
(See Ms. Barra's testimony in OAH).
Transcript p.12, L23-26;
12 Mr. Doring: Are you under impression if Ms. Yu
can play essential function?
13 Ms. Barra: No.
14 Judge: I am going to accept this document.
15 Mr. Doring: Did they ask you what can be done
for this accommodation request?
16 Ms. Barra: No
I got another Dr. Toney's letter
17 Judge:
evaluation on 9/18/2014, DHMH exhibit #11.
18 Mr. Doring: Can you tell about this?
Continue evaluation. Ms. Yu can't
19 Ms. Barra:
back work and suggested independent evaluation
20 Mr. Doring: Evidence...
I am going to accept this.
21 Judge:
22 Mr. Doring: (Distributed exhibit #12)
This is Dr. Toney's 10/8/2014 report.
23 Judge:
24 Mr. Doring: Could you summary?

App.18
25 Ms. Barra: Ms. Yu can't perform work under
current supervisor. Recommend not return to
work.
26Mr. Doring: What is your decision?
p.13, L1-28
1 Ms. Barra: Asked my supervisor, HR and EEO. I
got the instruction. Ms. Yu's request is not
reasonable. To grant
2 new supervisor is not reasonable. Rejected her
accommodation request.
3 Judge:

Any objection?

4 Ms. Yu:
5 Mr. Doring: You stated the conversation, what
conversation? Are you willing to accommodate?
6 Ms. Barra: I will try all my best to accommodate
her behavior, her writing part issue. But she does
not want to
7 talk to me or work to me. She wanted to talk with
my supervisor. She just do not want to talk and
work to me.
8 Mr. Doring: Do you know her health condition?
9 Ms. Barra: No, I do not know. She sent the doctor's
notice, then, refused. She sent the doctor's notice
to HR.
10 That is the protocol HR instructed. She could send
to HR but need to report me that.
11 Ms. Barra: I took part load. It is difficult taking
her working load. It is difficult for the Center.

App.19
12 Judge:
Dr. Toney's notice on 10/8/2014 as
exhibit #12. It is time 12:15. Can I ask how long
will be?
13 Mr. Doring: It will take 30 min.
14 Judge: 0.5 hr later, then take break lunch. You
have time to ask later. I got DHMH exhibit #13,
DHMH HR Ms.
15 Toria Livingston 10/10/2014 notice to Ms. Yu.
16 Mr. Doring: Who is Ms. Livingston? What role?
How did you involve with her?
She is HR with PHPA for the
17 Ms. Barra:
personnel decision. She advice employee and
supervisor in PHPA as to
18 what allowable under HR regulations.
19 Mr. Doring: Do you have any consultation with
her?
20 Ms. Barra: I have not conversation with Ms.
Livingston.
21 Mr. Doring: What content of the conversation with
HR Ms. Livingston between 10/8 and 10/10/2014?
22 Ms. Barra: I told her Ms. Yu's PEP unsatisfactory,
disciplinary action, I gave her everything so far I
had.
23 Accommodation request and what options to her.
24 Mr. Doring: Did she (Ms. Livingston) was aware
of EEO unable to accommodation, that Ms. Yu
can't be given,
25 EEO rejected accommodation?

App.20
26 Ms. Barra: Yes
27 Mr. Doring: Summary?
28 Ms. Barra: Ms. Livingston's letter advice her
that she may resign, retire and disability, if not,
she will be
29 terminated.

p. 20, L5-10
5 Ms. Yu: When did you know from HR or EEO I
am in the interactive process of accommodation
process?
6 Ms. Barra: I do not recall which day.
7 Ms. Yu: Did EEO Ms. (Delinda) Johnson discuss
with you if I am allowed to work for other
supervisor?
8 Ms. Barra: I did not.
9 Ms. Yu: When did you know Dr. Toney's 10/8/2014
recommendation to change supervisor?
10 Ms. Barra: Sometime of later of October. I can't
remember and recall exact day.
11 CDA#3, Tract#8, time. 4:13-0:48
12 Ms. Yu: So, when did you change office structure
after she talked to you in the October?
13 Ms. Barra: I do not understand your question.
14 Ms. Yu:

You said you only learn from EEO

Ms. Delinda Johnson about Dr. Toney's
recommendation

App.21
15 CDA#3, Track#8, Time. 4:51_the end of track#8:
16 (Information was missing and there was no
recording.)
17 CDA#3, Tack#9
18 Mr. Doring: Objection
19 Judge:

There was no question yet.

20 Ms. Yu: I am asking your question: Mr. Doring
gave you Exhibit #1, about office structure change
in Oct 2014.
21 Judge: Ask question
I am asking question, (about) this
22 Ms. Yu:
office structure change, does office structure
change after you learn
23 from EEO about Dr. Toney's recommendation?
I did not learn about Dr. Toney's
24 Ms. Bara:
recommendation from EEO.
25 Ms. Barra: Office change is not my decision but is
office director's decision. I can not change the
office, that
26 belong to director.

p. 21, L1-28
My first question, when did you learn
1 Ms. Yu:
Dr. Toney's recommendation? My second
question...
(interrupted) Stop! I have a question, is
2 Judge:
the office structure change?

App.22
3 Ms. Barra: October 2014. If there is a change, it is
minor. Because change remain same, I am her
supervisor
4 since beginning 2013.
5 Judge: Move on, what is your next question?
6 Ms. Yu: Thank you, your honor. Because DHMH
EEO Ms.Johnson wrote to me after discuss with
managers
7 about consideration of ADA including you and
indicated that you participated in the objection of
ADA. Did you
8 even express your desire?
9 Ms. Barra: No, I never expressed.
10 CDA#3, Track #9, time. 3:30-1:32
Did you ever thought after you learn
11 Ms. Yu:
Dr. Toney's recommendation how to make this
office
12 effectively work, more happiness and peaceful
working environment? What is your solution?
13 Ms. Barra: Yes...
14 Judge: (Interrupted Ms. Barra's answering Ms.
Yu's question) Original question is that did you
try to change
15 the environment after Dr. Toney's
recommendation? The answer was "yes", what is
your next question?
16 Ms. Barra: I am sorry, I misunderstand.

App.23
17 Judge: No ever, after Dr. Toney's
recommendation. What is your next question?
18 (long time gap in the recording of proceedings,
some information was missing.)
19 Tract #9, 4:30_-0.32:
20 Ms. Yu: Did you participate in the termination
letter?
21 Ms. Barra: No, I did not.
22 Ms. Yu: did you...?
23 CDA#3, Track#9, time. 4:41 to the end of track#9.
24 (Some information was missing and there was no
recording.)
25 CDA#3, Track#10
26 Ms. Yu: About the rejection of accommodation.
Why you think it is not working?
27 Ms. Barra: Certainly! The office only have
epidemiologist III and II. Epidemiologist II must
work under
28 Epidemiologist III. Epidemiologist III qualify lead
epidemiologist II.

p.22, L1-28;
1 Ms. Yu: You just stated that you never expressed
your desire and participate in the decision, but
why you
2 think only I work under your leadership can work
more effectively for the office?

App.24
3 Mr. Doring: Objection!
4 Judge: Question did answer, next question!
5 Ms. Yu: Could you let me know new office
structure was based on what principals?
Answer was "there really not much
6 Judge:
change in the office structure."
The reason I asked about is that: the
7 Ms. Yu:
structure changes was based on the program:
There are four
8 programs under office director, each program led
by the program manager...
9 Judge:

(Interrupted), I am ruling question.

10 Ms. Yu: My question is; next, coming soon,...
11 Judge: (Interrupted again) Do you have another
question?
12 Ms. Yu: Do you know Mr. Jeff working local public
health, he work under Ms. Erin Pension? He is
the
13 evaluator, similar to epidemiologist, cross and
interact to function for office program.
14 Ms. Barra: Yes, Mr. Jeff Norris work under Erin
Pennson.
The structure of the office employee
15 Judge:
content is not relevant to this case.
16 Ms. Yu: But, it is very critical, if you allow me,
your honor,...

App.25
17 Judge: (Interrupted again) You can do it in your
statement. But now the witness answered your
question,
18 move on next question.
19 Ms. Yu: Am I epidemiologist for heart disease,
stroke diabetes and obesity before you came to
this office?
20 Ms. Barra: Yes
21 Ms. Yu: So, when did my title as "epidemiologist"
title was changed to "State Public health action
22 epidemiologist"?
23 Judge: I have not seen any relevant.
24 Ms. Yu: It is important relevant to my
accommodation, my returning work under
program manager
25 leadership...
26 Judge: (Interrupted again) I am asking you to
move on.
27 Ms. Yu: Ok, I hope I can remember later about
this issue. Do you think your working way: divide
into small project, e-mail reporting...
p.23, L1-28
1 Judge: (Interrupted again) I do not understand
question. Try to make short question.
2

CDA#3, Track #11:

3 Judge: I don't see question, try again with short
question.

App.26
4 Ms. Yu: Ok. Since Department accommodate what
you try to do, but I rejected. Why do you think
your
5 accommodation way works?
6 Judge: (Did not allow Ms. Barra to answer Ms.
Yu's question) Ok, the witness gave the opinion,
decision of
7 Department ADA already made, it is not important
her opinion, I do not want to know.
8 Ms. Yu: If you think it is not necessary, because I
asked is related to the accommodation, why two
medical
9 doctor recommended DHMH EEO to change
supervisor? Why...
10 Judge: She answered question.
11 Ms. Yu: She answered, I asked next question,
she had not gotten a chance to answer yet...
12 Judge: My ruling is that she has already
answered question. Is there any other question?
13 Ms. Yu: Because I just asked, Ms. Barra has not
answered, Ms. Jacobson interrupted.
The termination said I cannot do
14 Ms. Yu:
essential function as your last disciplinary action:
I can not do a job,
15 "unsatisfactory" PEP.
16 Mr. Doring: Objection!
17 Judge:

I even did not understand the

App.27
question.
18 Mr. Doring: This "unsatisfactory" PEP was
different appeal, other issue. The reason of
"unsatisfactory" PEP was
19 not listed the reason.
20 Judge: Actually, you can reject this PEP because
agency did not list it as the reason I do not need
the question
21 related to this.
22 Judge: I am ruling. I am hearing this statement
of agency that was not the part of consideration of
termination.
23 I do not need to hear it.
24 Ms. Yu: Mr. Doring just asked Ms. Barra about
"unsatisfactory PEP" and it was related to the
termination. That
25 was her answer. I am very sorry to hear that (Mr.
Doring's objection) his statement in same issue
and same
1(0AH hearing) meeting.
2Judge: It has been said, I am ruling the meeting.
Ms. Yu: Ok.
CDA#3, Track #11, time. 4:22_-0.39:
Exhibit No. 4d.
DHMH HR Ms. Toria Livingston sent Petitioner
letter (10/10/2014) informing her the termination
plan prior to DHMH Office of Equal Opportunity's

App.28
response to Dr. Toney's recommended
accommodation and failed to provide Petitioner a
mitigation meeting (see below):
October 10, 2014
Xiao-Ying Yu
557 Kirkcaldy Way
Abingdon, MD 21009

Dear Ms. Yu,
I am Writing in reference to your employment
status with the Department of Health and Mental
Hygiene, Prevention and Health Promotion
Administration. We recently received a letter from
the State Medical Director, Dr. Robert Toney,
advising us that if a change in your work
environment could not be granted, than it is not
recommended that you return to work.

This is to advise you that you may resign your
position by forwarding a letter to that effect to my
attention by October 24, 2014 or, if you are eligible,
you may apply for a disability or service retirement,
in lieu of termination. If you choose not to resign or
retire, regrettably based on the Medical Director's
finding, we have no alternative but to terminate your
employment. Enclosed, please find an application for
the continuation of health benefits (COBRA), an
Application for Service and Disability Retirement,
and a copy of Dr. Toney's letter. Should you have any

App.29
questions or if we can be of assistance in any way,
please don't hesitate to contact me on (410) 767-5424.
Sincerely,

/s/ Toria Livingston

Toria Livingston
Personnel Officer II
Office of Human Resources

Attachments
File
Sara Barra

Exhibit No.4e.
(see Petition-related Appendix#27b, filed on
8/23/2019)
EEOC's right-to-sue letter filed in the District
Court of Maryland on March 22, 2018.
U.S EQUAL EMPLOYMENT OPPORTUNITY
COMMISSION
Baltimore Field Office

City Crescent Building
10 South Howard St 3rd Floor
Baltimore, MD 21201

App.30

Dr. Xiao-Ying Yu
557 Kirkcaldy Way
Abingdon, Maryland 21009
Re: EEOC Charge No.:531-2014-02468C
Yu v. Maryland Department of Health and
Mental Hygiene

Dear Dr. Yu:
We have reviewed the information provide by both
you and your previous employer, hereafter referred to
as "Respondent." In additional, I received your
rebuttal and the information secured during the FactFinding Conference held on April 19, 2011 at 10:00
a.m.
You alleged that you were sub to harassment due

App.31

to your race (Asian), national origin (China), age (61),
disability and discharged in retaliation for engaging in
protected activity in violation of 'Title VII of the Civil .
Rights Act of 1964, as amended, the Age Discrimination in
Employment Act of 1967, as amended, and the Americans
with Disabilities Act Amendment Act (ADAAAO of 2008.
Respondent denied all allegations of discrimination and
contends that Sara Bara became your new supervisor on
December 19, 2012. During the Fact- Finding Conference
held on April 19, 2017, Ms. Bara indicated that she did not
discriminate against you due to your race, age, national
origin, disability or age. At the times you were the only
individual in your position as Epidemiologist II in the
unit Ms. Bara stated that due to the addition of more
work and more people were hired. The MS-22 Job
Description was refined and expanded for the other new
staff members. Ms. Bara indicated that there were several
times in which you met with Dr. Schell regarding research
abstract and other matters and Ms. Bara advised you to go
thru her before discussing is with internal and external
partners. The disciplinary actions you received were in
reference to you still going to these internal and external
partners to discuss matters before meeting with Ms. Bara
or to argue your point Although you complained of
discrimination, I was unable to find any evidence to support
your claim and unable to find a causal connection of
retaliation that led to your termination.
As you know, the Fact-Finding Conference was held on
April 19, 2017 and attended by Delinda Johnson, Equal
Access Compliance Manager, DHMH, Sara Bara, formerly

App.32
Chief: Epidemiology Special Projects and Nicholas
Johansson, Assistant Attorney Gen DHM.H, and on
conference call Peter Y. Qui, Esq. of the Law- Office of
Peter Y. Qui listened in on your behalf. As you aware, you
came to the fact-finding conference and handed me a
doctor's note from Dr. Sharen Bisson, MD, indicating that
you were not medically able to attend a conference without
the support and active participation of your attorney. After
handling me the note, I still held the fact-finding conference
because the other attendees had arrived.
The Fact-Finding Conference was an efficient way of
getting all the players together and discussing the issues
that brought the complaint about in the first place. I have
made the decision to recommend a no-cause finding.
On September 5, 2017, I received an email from James M.
Ray II of the Law Firm of Ledyard Ray, LLP indicating that
he no longer represented you. During your visit to our office
on August 29, 2017, you also indicated that Mrs. Ray no
longer represented you.
Therefore. You are being issued a Dismissal and Notice of
Rights which affords you the opportunity to take this
matter into Federal Court. You have the right to file a
lawsuit against the employer within 90 days from the date
you receive the Dismissal and Notice of Rights. If you fail to
file a lawsuit within the appropriate time frame, you will
lose the right to pursue this matter in court.
Should you wish to obtain a copy of the administrative file
for this charge, please write to the following address to
make such a request. You must do so within the abovereferenced 90-day period, which can be extended if you do

App.33
file a lawsuit in court concerning this matter. Please be
advised that there may be a fee if you make such a request
for file disclosure. Furthermore, please note that failure to
receive requested documents in a timely manner does not
extend the time-period for filing a lawsuit.
File Disclosure
EEOC-Phibvielphia District Office
801 Market Street, Suite 1300
Philadelphia, Pennsylvania 19107

Should you have any questions, 1 can be reached at (410)
209-2782 or via email at christie.bovd@eeoc.gov.

Sincerely,

/s/Christie D. Boyd
Christie D. Boyd
Investigator

EEOC Form.161 (11/16)
U.S. EQUAL EMPLOYMENT OPPORTUNITY COMMISSION
DISMISSAL AND NOTICE OF RIGHTS

To:

Xiao-Ying Yu

From: Baltimore Field Office

557 Kirkcaldy Way

10 South Howard St

Abingdon, MD 21009

3rd Floor

Baltimore, MD 21201

App.34
On behalf of person(s) aggrieved whose identity is
CONFIDENTIAL (29 CFR § 1601. 7(a)

EEOC Charge No. 531-2014-02468

EEOC Representative:
Investigator: Christie D. Boyd, Investigator
Telephone No.: (410) 209-2762

THE EEOC IS CLOSING ITS FILE ON THIS CHARGE
FOR THE FOLLOWING REASON:

[ ]The facts alleged in the charge fail to state a claim under
any of the statutes enforced by the EEOC.

[ ]Your allegations did not involve a disability as defined by
the Americans With Disabilities Act.
[ ]The Respondent employs less than the required number
of employees or is not otherwise covered by the statutes.
[ ]Your charge was not timely filed with EEOC; in other
words, you waited too long after the date(s) of the alleged
discrimination to file your charge
[X] The EEOC issues the following determination:
Based upon its investigation, the EEOC is unable to
conclude that the information obtained establishes violation
of the statutes. This does not certify that the respondent is
in compliance with that statues. No finding is made to any

App.35
other issues that might be construed as having been raised
by this charge.
[ 'Other (briefly state)

- NOTICE OF SUIT RIGHTS (See the additional information attached to this form.)
Title VII, the Americans with Disabilities Act, the
Genetic Information Nondiscrimination Act, or the
Age Discrimination in Employment Act: This will be
the only notice of dismissal and of your right to sue
that we will send you. You may file a lawsuit against the
respondent(s) under federal law based on this charge in
federal or state court. Your lawsuit must be filed
WITHIN 90 DAYS of your receipt of this notice; or your
right to sue based on this charge will be lost. (The time
limit for filing suit based on a claim under state law may
be different.)

Equal Pay Act (EPA): EPA suits must be filed in federal
or state court within 2 years (3 years for willful violations)
of the alleged EPA underpayment. This means that back
pay due for any violations that occurred more than 2
years (3 years) before you file suit may not be collectible.

On behalf of the Commission: Rosemarie Rhodes
(stamp)

App.36
Rosemarie Rhodes
Director

(Date Mailed): 10/16/2017
Enclosure(s)
Cc: Nicholas E. Johansson
Assistant Attorney General
Office of the Attorney General, State of Maryland
Department of Health and Mental Hygiene
Suite 302
300 West Preston Street
Baltimore, Maryland 21201

Exhibit No. 5
Dr. Bruise Sprain's diagnosis and treatment based on
the X-Ray which indicated the fracture of Petition's
right foot fourth and fifth metatarsal bone:
Please make an appointment with orthopedist 3 visit(s)
with for Disp fx of fourth and fifth metatarsal bone,
right foot.

